<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                          TUESDAY, MAY 8, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:31 p.m., in room 192, Dirksen 
Senate Office Building, Hon. Steve Daines (Chairman) presiding.
    Present: Senators Daines, Murphy, Hyde-Smith, and Van 
Hollen.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. CARLA D. HAYDEN, LIBRARIAN OF 
            CONGRESS

               OPENING STATEMENT OF SENATOR STEVE DAINES

    Senator Daines. Good afternoon. The subcommittee will come 
to order.
    I'd like to welcome everyone to the second of our fiscal 
year 2019 budget hearings for the Legislative Branch 
Appropriations Subcommittee.
    Today, we have with us the Honorable Carla Hayden, 
Librarian of Congress, and the Honorable Stephen Ayers, 
Architect of the Capitol. I very much appreciate their 
willingness to appear before the subcommittee today and look 
forward to your testimony.
    I'd like to start by thanking you for taking time to be 
here today as well as being very generous in your time with the 
tours and with your staff. They were very informative for me to 
see the vast responsibilities that you have and the important 
mission that you go to work and accomplish every day.
    Mr. Ayers, being able to get up close and see some of the 
ongoing projects around campus has given me a greater 
appreciation for all your agency does. In fact, just today, I 
was pointing out the difference between the Senate side of the 
building and the House side of the building, you kind of see 
before and after view there. I told my staff members it's a 
huge responsibility to maintain these facilities for those who 
work here and the millions who visit here every year, while 
also preserving these most important historic buildings.
    Dr. Hayden, I greatly enjoyed seeing some of the many 
treasures the Library has. In fact, it was fun to share with my 
own family last week what you shared with me on that table and 
I can see the talents of your staff, the passion of your staff 
about what they do and they truly are an asset to our Library, 
not to mention the expertise. You've got a lot of walking 
history there between the ears and it's very, very impressive.
    I'd also like to mention my support of the Veterans History 
Project. The Library collects, preserves, and makes accessible 
the accounts of American war veterans for the benefit of future 
generations. In fiscal year 2017, the project received 4,335 
collections and I'm proud to say that our office has submitted 
over 75 interviews for Montana veterans.
    Looking forward to fiscal year 2019, the total budget 
request for the Library is $706 million in appropriated funds, 
an increase of $36.2 million above the fiscal year 2018 enacted 
level. The request supports continued investment in IT 
modernization efforts across the Library, including the 
Copyright Office and Congressional Research Service (CRS).
    It also focuses on increased staff capacity to address the 
backlogs in collection processing and copyright registration.
    The Architect of the Capitol's budget request for fiscal 
year 2019 totals $744.9 million, an increase of $32.8 million 
above fiscal year 2018 enacted level. Of this request, a $198 
million is for capital projects around the campus and $434.9 
million is for the operating budgets of each jurisdiction to 
maintain facilities on a daily basis.
    The Architect's request also seeks to address a backlog of 
deferred maintenance totaling $1.5 billion while also providing 
for critical life safety projects across all its jurisdictions.
    I look forward to the discussion today and learning more 
about your specific requests and understanding each of your 
agencies' priorities in the coming fiscal year.
    I'd like to turn now to my Ranking Member, Senator Murphy, 
for any opening remarks he may like to make.

                STATEMENT OF SENATOR CHRISTOPHER MURPHY

    Senator Murphy. Well, thank you to both of you for your 
very valuable and commendable public service. These are big, 
complicated Agencies to run. We appreciate your willingness to 
be up to the job on a daily basis.
    I will note this is my second year of doing these hearings 
and I will just as a point of information note that the crowds 
actually seem bigger this year, which I think must have to do 
with your chairmanship, Mr. Daines.
    Senator Daines. I think it's the outstanding Ranking Member 
that draws the crowd.
    Senator Murphy. Listen, you've got big tasks ahead of you 
this year, Dr. Hayden. As you know, I'm very supportive of the 
Library's plans to enhance the visitors' experience.
    We've put a lot of money into this facility and it really 
shouldn't be a hidden gem in Washington. It should be front and 
center on every visitor's agenda when they come to the Capitol 
and so look forward to continuing to work with you to increase 
the ability of all visitors to experience what we get to 
experience at the Library of Congress.
    And to Mr. Ayers, thank you for our collaborative 
relationship. You know, we've put off a lot of real important 
public safety projects and so I know they are front and center 
on your agenda and in your budget, but I hope in your testimony 
and in answers to questions we'll also get to talk about some 
of the projects that if do now, we can save money on compared 
to continued postponement.
    You have been, I think, very good in presenting us with 
some opportunities for savings by front-loading some projects 
that are inevitable and have to be done one way or another and 
our task will be to balance those critical public safety 
projects with those potential cost savings, as well. So look 
forward to your testimony.
    Senator Daines. I would like to ask our witnesses, 
beginning with Dr. Hayden, to give a brief opening statement of 
approximately five minutes to allow time for questions.
    The written testimony of each witness will be printed in 
full in the hearing record.
    Dr. Hayden.

               SUMMARY STATEMENT OF HON. CARLA D. HAYDEN

    Dr. Hayden. Thank you, Chairman Daines, Ranking Member 
Murphy, and Members of the subcommittee. Thank you for this 
opportunity to provide testimony in support of the Library's 
2019 budget.
    The Library of Congress remains the world's largest 
library, a premier research institution, and a destination for 
scholars and Members of Congress. It is also an institution 
that holds enormous potential for reaching so many more 
Americans from all walks of life who can find information and 
inspiration from this remarkable national resource and this has 
been a major focus and will continue to be on my tenure.
    Over the past year, we've made significant strides in 
increasing access to the Library and improving the user 
experience. For example, the U.S. Copyright Office published a 
new Archive of Copyright Cases.
    The Congressional Research Service is currently beta-
testing online webinars and adding instant messaging and tele-
conferencing services. The National Library for the Blind and 
Physically Handicapped launched a public education program to 
raise awareness of the services they offer.
    The Law Library put fully-indexed and searchable historic 
versions of the U.S. Codes online and new primary source 
collections now online include the papers of Alexander 
Hamilton, Ulysses Grant, Benjamin Franklin, and Susan B. 
Anthony, as well as new high-resolution scans of the original 
documents in the Abraham Lincoln papers.
    As I've visited libraries and communities in many States 
this past year, I have been energized by the interest, the 
enthusiasm, and the expressed need for more connection to the 
resources and services of the Library of Congress.
    Realizing the Library's potential to reach out across the 
country requires that we first take care of the fundamentals 
and I'd like to express my sincere gratitude for your support 
in the 2017 and 2018 funding bills for mission-critical goals.
    The initiatives funded in these bills, along with the 2019 
request, methodically build to our goals of modernization for 
greater access and customer service to the Congress and 
visitors and special thank you for your support and initiative 
to revitalize and enhance the visitor experience in the Thomas 
Jefferson Building through a public-private partnership.
    I'm also deeply appreciative for your support for the 
Library's Collections Storage Modules at Ft. Meade as part of 
the Architect of the Capitol's budget.
    I'm happy to report that as a result of the support of this 
committee in crucial areas of IT modernization, Copyright 
Office staff and storage programs, the Library has closed or is 
awaiting GAO confirmation on 24 of 31 public recommendations 
for improving IT efficiencies.
    The Copyright Office has reduced its registration backlog 
by nearly 25 percent in the past year and we are actively 
filling the interim storage facility at Cabin Branch as well as 
the recently completed Module 5 at Ft. Meade.
    And, in addition, I've taken managerial steps during the 
past year to create efficiencies in our operations and 
management. I have appointed Mr. Mark Sweeney as Acting Deputy 
Librarian of Congress. All IT organizations and personnel were 
centralized into the Office of the Chief Information Officer 
and we completed the first phase of the Envisioning 2025 
Initiative for a new Strategic Plan.
    The Library's direction forward, as defined in the planning 
process, will be more user-centered. As a result of this 
planning, I announced this month a realignment of internal 
units to prepare the Library for this user-centered future, and 
I'm confident that the combined steps have established a robust 
management structure that is prepared to hit the ground running 
with the new Strategic Plan as it's completed later this 
summer.
    For fiscal year 2019, our budget request builds on the past 
2 years and concentrates on IT modernization, targeted 
workforce skills, and increased access. Details of the request 
are provided in my written testimony and highlights include 
ongoing investment in the Copyright IT Modernization.
    As we move to the development of the next generation 
registration system and a modern recordation system, which is 
currently paper-based, investment in our workforce for CRS 
analysts, economists, and attorneys to meet full demand, full 
registration of the copyright examiner workforce, and foreign 
and legal language expertise for the Law Library.
    And, finally, workforce investment and library services, 
which will increase access by speeding up processing of a 
significant backlog in Special Collections, such as the Teddy 
Roosevelt and Caspar Weinberger papers, which have yet to be 
processed.
    And to reiterate, IT modernization and a strong workforce 
are critical areas of investment to help the Library achieve 
its potential as a national resource with superior customer 
service to all of our service populations.
    Chairman Daines, Ranking Member Murphy, Ms. Hyde-Smith, 
thank you for your interest, and I look forward to any 
questions.
    [The statements follows:]
               Prepared Statement of Hon. Carla D. Hayden
    Chairman Daines, Ranking Member Murphy, and Members of the 
subcommittee:
    Thank you for the opportunity to provide testimony in support of 
the Library's fiscal 2019 budget.
    Now in my second year as Librarian of Congress, I am even more 
committed to doing all I can to share the breadth and depth of the 
Library's collections and our staff's expertise and commitment to 
public service. Today, the Library holds more than 167 million items in 
all formats and languages and has the world's largest collections of 
legal materials, films, and sound recordings. Last year, the Library 
welcomed nearly 1.8 million in-person visitors and there were 93 
million visits to our website. CRS provided custom services to 100 
percent of Senate and House Member offices and standing committees. 
More than 452 thousand claims were registered by the U.S. Copyright 
Office. More than 10.5 million preservation actions on the collections 
were undertaken; over 20 million audio/braille books and magazines were 
circulated via partnerships with more than 100 network libraries 
throughout the United States; and the Library responded to over 1 
million reference requests from the Congress, the public, and other 
Federal agencies.
    Over the past year, the Library has made significant strides in 
increasing access to Congress and the American people. The Copyright 
Office published a new archive, a resource offering public rulings and 
government briefs in copyright cases. CRS worked to modernize its 
service to Congress by joining the Skype for Business Federation, which 
this year enabled instant messaging and teleconferencing with 
congressional staff. The Library launched LC Labs and, working with the 
Serials division, rolled out a new crowd sourcing app inviting users to 
help create a database of historic newspaper images from Chronicling 
America. New ``touch history'' tours allow visitors who are visually 
impaired to experience the magnificence of the Jefferson Building. The 
Law Library further expanded online content with fully indexed and 
searchable U.S. Codes going back to 1925. New collections have been 
made available online, such as the papers of Alexander Hamilton and 
James Buchanan, and new high-resolution scans of the original documents 
in the Abraham Lincoln papers.
    I would like to express my sincere gratitude for the outstanding 
support that this subcommittee and the entire Congress give to the 
Library. In particular, I appreciate the support you have given us for 
our fiscal 2018 requests to meet high-priority staffing needs in the 
Copyright Office as well as enterprise-wide investment in IT 
modernization to upgrade network infrastructure, Copyright IT 
modernization, and the Congressional Research Service's (CRS) mission-
specific Integrated Research and Information System. The Library has 
absorbed 76.5 percent of mandatory pay and price level increases 
(approximately $122 million) between 2010 and 2017. Your strong support 
for staffing resources allows us to better handle critical work and to 
begin replacing specialized staff expertise that was developed over 
many years and lost--principally to retirement--and not replaced due to 
budget limitations. I also thank you for your continued support for the 
Library's collection storage modules program at Ft. Meade as part of 
the Architect of the Capitol's budget.
    I come before you today to discuss the Library's funding request 
for fiscal 2019 as we continue implementation of a modernization 
process across the Library that will expand access, provide superior 
customer service, and ensure proper stewardship of the national 
collection.
    In the past year, I have taken steps to ensure an administrative 
foundation is in place to support and lead us toward these goals.
    I appointed Mark Sweeney as Acting Deputy Librarian of Congress. 
Prior to his current appointment, Mr. Sweeney served as the Associate 
Librarian for Library Services. He was responsible for carrying out 
Library Services' mission to acquire, organize, provide access to, 
maintain, secure, and preserve the Library of Congress's universal 
collection.
    In December, all service unit IT organizations and all IT personnel 
were centralized into the Office of the Chief Information Officer 
(OCIO) to maximize value from the Library's investment in technology. 
All technology activities are now coordinated through the OCIO and 
approved by the Chief Information Officer.
    In the same month, we saw the results of the first phase of our 
Envisioning 2025 initiative, which will inform a 5-year strategic plan 
to guide all service units in working toward shared goals. In the first 
phase, the Library more clearly defined its role in American life as 
that of a place for memory, knowledge, and imagination:

        Memory--Acquire, sustain, and provide access to a unique 
        universal collection

        Knowledge--Provide authoritative and objective research, 
        analysis, and information

        Imagination--Inspire and encourage creativity, promote, and 
        protect the work of American creators

    The Library's direction forward, as defined in Envisioning 2025, 
will be more ``user-centered.'' The Congress will always be the 
Library's foremost user as we continue to support this body in your 
legislative and representational duties. Users also encompass creators, 
inclusive but not limited to copyright users and stakeholders; 
individual learners of any age who seek understanding and knowledge 
through the Library's collections and services; and connectors who are 
external communities such as libraries, schools, or other groups and 
institutions that connect users to the Library.
    Thank you for the supporting the Library's efforts to revitalize 
and enhance the visitor experience in the Thomas Jefferson Building 
through a public/private partnership. This is an exciting future 
direction for the Library as we bring the Nation's collections and 
history out of the vaults and into public spaces. Through expanded and 
improved access to the national treasures in the Library, visitors will 
be inspired to use our collections just as we have envisioned in 2025 
and beyond.
    I am confident that we have a strong management structure and 
robust strategic planning process to lead the Library into the future. 
Now, however, I ask for your assistance in helping us take the 
additional steps we need with an increase in funding for critical 
initiatives.
    The Library of Congress fiscal 2019 budget request is for 
approximately $761 million, which represents a 5.9 percent increase 
over the Library's fiscal 2018 enacted appropriation. Of the requested 
$42 million increase, 52 percent accounts for mandatory pay and price 
level increases ($22.0 million). The balance of the increase represents 
critical program investments necessary to fulfill the Library's role 
and to move forward on the commitment to be more user-centered.
    This request extends and builds on the modernization efforts 
initiated in 2017 and 2018, which concentrated on information 
technology (IT) modernization, a strong workforce, and increased 
access. The Library continues to embrace modernization, not only of its 
IT but of its workforce, infrastructure, and collections stewardship.
    The Library's staff is essential to fulfilling its memory role--
acquiring, sustaining, and providing access to a unique universal 
collection. We must foster the correct mix of skillsets to achieve 
this. We are also employing digitization and other technologies as a 
means of expanding access to memory even with fewer staff. The budget 
request includes an investment to strengthen staffing capacity for 
processing special collections where a significant backlog has emerged 
over the last 10 years. This would include such works as the Herman 
Wouk and Caspar Weinberger papers, which are currently stored in 
thousands of containers inaccessible to users. Our request also seeks 
to dramatically increase access through two digitization efforts. The 
first to preserve and make accessible historic copyright records and, 
the second, in the Law Library to make public domain U.S. legal and 
legislative materials and foreign law materials more widely available.
    Next, our budget submission strengthens the Library's role in 
knowledge, in its capacity to provide authoritative research and 
analysis in areas of significant congressional interest in the CRS, and 
foreign legal and language expertise in the Law Library.
    The CRS workforce has decreased by approximately 13 percent in the 
last 8 years, losing 92 FTE, and 23 percent of CRS staff will be 
eligible for retirement this year. In fiscal 2016, CRS received 563,000 
requests for products and services, including more than 61,400 requests 
for custom research and analysis. Demand is expected to remain at these 
levels or higher in the future. Additional FTE in CRS will strengthen 
analytic capacity and ensure replacement of corporate knowledge over 
time as retirements and attrition take place.
    The Copyright Office and its work is central to the Library's role 
of inspiring and encouraging creativity. Our quest for Copyright IT 
modernization has continued in successive budgets with infrastructure 
and networking. Now, in the fiscal 2019 budget, we turn to the 
development of the Next Generation Registration System and a modern 
recordation system. The Library's commitment to a modernized and well-
staffed Copyright Office is reflected in requests for a modernization 
enterprise solution, restoration of the registration examiner workforce 
to pre-sequestration levels, and contractor support to aggressively 
address a recordation backlog before the data is migrated to a new, 
modernized system. We are specifically targeting areas where backlogs 
have emerged due to attrition, retirement, or increased activity.
    Shared operating capacity allows the Library to be more efficient 
and cost-effective as we work to achieve our goals. The congressionally 
sanctioned Legislative Branch Financial Management System (LBFMS), 
hosted by the Library as a shared service for the legislative branch 
has been a success story. It has experienced substantial growth and now 
provides the financial system for eight legislative branch agencies. 
From 2015 to 2017, the number of users has increased 44 percent and the 
number of transactions processed by 140 percent. As a shared service, 
the LBFMS averages a combined annual $2.5 million in cost avoidance, 
compared to operating separate systems through Federal shared services 
providers. Accompanying this growth and success is the need to 
standardize the system across the user agencies. To accommodate these 
growing pains, our budget request provides for process standardization 
across the user agencies to decrease the need for costly customizations 
over time and increased hosting costs for this shared system.
    In closing, modernization--of workforce, infrastructure, 
collections stewardship, as well as IT--is critical to moving the 
Library forward into the future. The fiscal 2019 budget request 
furthers the modernization efforts of recent budget requests and 
targets critical workforce needs.
    Mr. Chairman, Ranking Member Murphy, and Members of the 
subcommittee, the Library is the embodiment of the American ideal of a 
knowledge-based democracy. I thank you again for supporting the Library 
of Congress and for your consideration of our fiscal 2019 request.
                                 ______
                                 
Prepared Statement of Karyn A. Temple, Acting United States Register of 
                               Copyrights
    Chairman Daines, Ranking Member Murphy, and Members of the 
subcommittee:
    Thank you for the opportunity to submit the United States Copyright 
Office's fiscal 2019 budget request.
    The Nation's copyright system provides exceptional benefits to all 
who use it, from those who work in copyright industries to those who 
seek to use copyrighted materials to the public at large. It 
incentivizes the development of our creative culture and facilitates 
the important exchange of information among researchers and potential 
users of copyrighted materials. The importance of copyright is 
highlighted by the fact that, in 2015, copyright industries employed 
more than 5.5 million workers and contributed over 6 percent of the 
total U.S. GDP.\1\
---------------------------------------------------------------------------
    \1\ ``International Intellectual Property Alliance, Copyright 
Industries in the U.S. Economy: the 2016 Report 2 (2018)'', available 
at https://iipa.org/files/uploads/2018/01/2016CpyrtRptFull-1.pdf; see 
also ``U.S. Patent and Trademark Office and the Economics and 
Statistics Administration, Intellectual Property and the U.S. Economy: 
2016 Update (2016)'', available at https://www.uspto.gov/sites/default/
files/documents/IPandtheUSEconomySept2016.pdf (noting that copyright-
intensive industries provided 5.6 million jobs in 2014 numbers).
---------------------------------------------------------------------------
    The Copyright Office plays an essential role in this ecosystem. The 
Office administers the copyright law and, in fiscal year 2017 alone, 
registered 452,000 claims to copyright, examined 5,984 statutory 
licensing filings, and recorded nearly 15,000 ownership-related 
documents--generating a total of more than $39 million in fees for its 
services. The Office administered over a billion dollars in royalties 
for statutory licenses to use certain copyrighted works. The Office 
also manages the mandatory deposit provision of the Copyright Act that 
provides the Library of Congress with a myriad of published works for 
its collections, which in fiscal 2017 included 658,045 published works 
worth over $40 million.
    To assist with its work and provide a foundation for modernization, 
the Copyright Office in fiscal 2017 undertook substantial successful 
measures to streamline and update its practices. The Office further 
began several new initiatives to reduce the number of pending 
applications for registration. The Office also issued nine final rules 
and worked on an additional eight proposed rules that increased the 
effectiveness of the copyright system. For example, the Office 
published final rules regarding group registrations of newspapers and 
photographs to provide a more efficient electronic submission mechanism 
to file for copyright registrations, and a final rule for refining the 
deposit requirements for certain types of literary works and musical 
compositions. To further simplify and automate its processes, the 
Office issued new rules to allow electronic signatures on 
electronically-filed statements of account, for the removal of 
personally identifiable information from registration records, and an 
interim rule with improvements in the process of recording transfers of 
copyright ownership, which can facilitate the licensing marketplace.
    The Copyright Office also performs critical legal and policy 
functions for the United States. In fiscal year 2017, the Office 
assisted Congress with numerous copyright-related policy issues, 
including by releasing legal and policy reports on a wide array of 
issues such as section 1201 limits on circumvention of technological 
protection measures, software-enabled consumer products, exceptions for 
libraries and archives, and mass digitization. The Office also provided 
expert copyright advice to Congress during its continuing review of the 
Nation's copyright law on a number of key copyright issues. Further, in 
fiscal year 2017, Office lawyers conducted extensive copyright legal 
analysis and worked with the executive branch and the courts on a 
number of high-profile litigation matters, including one case before 
the U.S. Supreme Court. On the international front, the Office 
participated on international delegations working on a potential 
broadcast treaty and several free trade agreements, and in 
intergovernmental groups assessing the impact of foreign copyright 
systems.
    Moreover, the Copyright Office has continued its critical mission 
of assisting the public with understanding and navigating copyright 
issues. In fiscal 2017, the Office answered almost 194,000 phone, 
email, and mail inquiries; retrieved and copied thousands of copyright 
deposit records for parties involved in litigation; and assisted nearly 
2,000 in-person visitors. The Office also proactively worked to 
distribute 48 issues of NewsNet, an electronic news service covering 
legislative and regulatory developments and general Office news, to 
more than 28,000 subscribers.
    To conduct all of this work effectively and efficiently, the 
Copyright Office needs the foundation of a modern information 
technology system. Developing and deploying modernized systems that 
facilitate and enhance the Office's work and provide a positive 
experience for the public is therefore one of the Office's highest 
priorities. To that end, in September 2017, the Office and the Library 
of Congress's Office of the Chief Information Officer (OCIO) jointly 
submitted to the House and Senate Committees on Appropriations a 
revised Copyright Office IT modernization plan that focused on 
leveraging resources within the Library to take full advantage of 
possible economies of scale. That revised plan, Modified USCO 
Provisional IT Modernization Plan: Analysis of Shared Services, Support 
Requirements, and Modernization Efforts,\2\ supplements the Office's 
2016 Provisional Information Technology Modernization Plan and Cost 
Analysis,\3\ and draws on the collaborative work of the Office and the 
OCIO to identify possible synergies that might exist now or in the 
future, as both the Office and the Library engage in dual modernization 
efforts.
---------------------------------------------------------------------------
    \2\ ``U.S. Copyright Office, Modified USCO Provisional IT 
Modernization Plan: Analysis of Shared Service, Support Requirements, 
and Modernization Efforts (2017)'', available at https://
www.copyright.gov/reports/itplan/modified-modernization-plan.pdf 
(``Modified IT Plan'').
    \3\ ``U.S. Copyright Office, Provisional Information Technology 
Modernization Plan and Cost Analysis (2016)'', available at https://
www.copyright.gov/reports/itplan/technology-report.pdf (``Provisional 
IT Plan'').
---------------------------------------------------------------------------
    Through all of its work, the Copyright Office sits in the middle of 
the complex and incredibly important national copyright system, and 
continues to provide Congress, the executive branch, the courts, and 
the public with expert copyright staff who work hard to administer the 
copyright law.
          funding and overall fiscal year 2019 budget request
    The Copyright Office requests a budget for fiscal year 2019 that 
will enable the Office to fulfill crucial copyright modernization goals 
as set forth in the Modified IT Plan, and to provide for supplemental 
staffing necessary to achieve greater efficiencies in registration, 
public records, public information services, and legal review. As the 
Office positions itself for the future, the requested funds will 
support the changes necessary to provide world-class service to a wide 
variety of constituencies--from the copyright community to government 
entities to the public at large.
    The Copyright Office's overall budget is composed of three separate 
budgets or program areas: (1) Basic Budget, which funds most of the 
Office's core operations, including the majority of payroll-related 
expenses. Historically, the Basic Budget has been provided through a 
combination of appropriated dollars and authority to spend fee revenue, 
with fees constituting a majority of this funding (generally in the 
range of 58 percent to 67 percent); (2) Licensing Budget, which is 
derived completely from licensing royalty collections otherwise payable 
to copyright owners and filing fees paid by cable and satellite 
licensees pursuant to statutory licenses administered by the Office; 
and (3) Copyright Royalty Judges Budget, which funds the Copyright 
Royalty Board (``CRB'')--although the CRB is not a part of the Office, 
the Office administers its budget on behalf of the Library of Congress.
    For fiscal year 2019, the Copyright Office requests a combined 
total of $93.4 million in funding and 483 FTEs, of which $49.8 million 
would be funded through authority to expend fees collected in fiscal 
year 2019 and in prior years.

    The Office's fiscal year 2019 requests are:

  --Basic Budget: $85.8 million and 454 FTEs. $21.6 million and 23 FTEs 
        of this request are for new initiatives, including funding 
        Copyright Office modernization activities aligned with the 
        joint Modified IT Plan, and staffing to address ongoing 
        operations described further below. As in past years, the 
        Office asks that Congress provide budget authority through a 
        combination of annual appropriations and authority to offset 
        fee revenue. The Office requests that $39.2 million be provided 
        through authority to expend fiscal year 2019 fee revenue and 
        that $4.3 million come through use of unobligated revenue 
        balances of prior years. The Office requests that the remaining 
        $42.3 million come from appropriated dollars.

        Initiatives to be funded through this request include:

    --$12.1 million (8 FTE) for Office modernization activities, which 
            in fiscal year 2019 will primarily encompass development 
            work for the next-generation registration system and final 
            development and deployment of the automated recordation 
            system. In addition to technical development efforts, this 
            initiative includes eight positions needed to ensure 
            effective project oversight through the Copyright 
            Modernization Office (``CMO''), which is partnered with the 
            Library's OCIO. The recommended mix of funding for this 
            initiative includes $4 million in increased offsetting 
            collections authority, $2 million in prior-year unobligated 
            balances, and $6.1 million in new appropriations.
    --$5 million for the Office's Searchable Historic Records project. 
            This request will focus on completion of the digitization 
            of the public records and development of the Office's 
            virtual reading room. Pending an industry analysis 
            currently underway to identify the best approach, the 
            project will transition to indexing records to develop 
            public search capabilities for all records via a web 
            interface.
    --$2.1 million (15 FTE) for additional examination positions to 
            reduce pendency times for copyright registration.
    --$1.3 million to provide for the long-term storage of the Office's 
            physical copyright deposits, a significant number of which 
            must be secured by the Office for the life of the 
            underlying copyright.
    --$1.1 million for contract support to reduce the backlog of 
            recordation requests and to prepare for transition to an 
            automated recordation system.
  --Licensing Division Budget: $5.8 million, all of which is funded via 
        fees and royalties. The requested increase includes mandatory 
        pay-related and price level increases of $.75 million.
  --Copyright Royalty Judges Budget: $1.8 million in total, with $.15 
        million to support mandatory pay-related and price level 
        increases. $.5 million (for non-personnel-related expenses) of 
        the total request is offset by royalties. The remainder, $1.3 
        million in appropriated dollars, is to cover the personnel-
        related expenses of the judges and their staff.
                        focus of funding request
    The Copyright Office's funding request focuses on three key areas: 
(1) increased funding for IT modernization efforts, including the 
historical records initiative; (2) staffing for the Office's core 
registration services; and (3) contract support to support the Office's 
recordation program, as well as for inventory activities to prepare for 
the Office's long-term need to secure physical copyright deposits.
Copyright IT Modernization
    Modernization of the Copyright Office's aging information 
technology systems and applications is the Office's first priority. In 
partnership with the Office, the Library's OCIO developed detailed cost 
projections and timelines for full IT modernization that align with the 
revised provisional IT modernization plan and are reflected in the 
Office's modernization funding request. In addition to partnering on 
the modernization planning, the OCIO is taking full responsibility for 
the technical IT responsibilities for the Office, as the Library 
consolidated all Office information technology positions within the 
OCIO in December 2017. With all technical IT support now residing 
within the OCIO, both the Office and the OCIO support a new approach to 
maintaining the Office's oversight of its mission-critical systems. In 
accordance with the revised plan, in January 2018 the Copyright Office 
established the CMO, which complements the OCIO's technical support by 
providing the business direction necessary to ensure that modernization 
projects are continuously aligned with the Office's mission and 
strategic goals. In keeping with the plan's dual-governance approach, 
the Acting Register of Copyrights and the Library's Chief Information 
Officer jointly chair a newly-formed Copyright Office Modernization 
Governance Board, which provides the executive direction critical to 
meeting the Offices' long-term modernization goals.
    Projects already underway under the supervision of the CMO and the 
Governance Board include the Copyright Office's new automated 
recordation system, which is entering into final development stages in 
anticipation of a calendar year 2019 release, and which completely 
overhauls the current manual recordation of documents. The Office and 
the OCIO have also begun early-stage work on the Office's next-
generation enterprise registration system through a contract that 
provides for design of the user interfaces that unify how end users 
experience the Office's applications. Also noteworthy is the January 
2018 release of the Office's ``proof of concept'' Virtual Card Catalog, 
which provides preliminary and accelerated public access to historical 
copyright records in advance of full digitization of all Office 
records, while seeking public input on options for further access. 
Furthering the goal of data accessibility, both for public benefit and 
for operational insight, the Office also is developing a data 
management model that ultimately will provide for a federated search 
technology to allow users to search across registration, recordation, 
and licensing databases, and that will establish chain-of-title 
sequencing that can link registrations to recordations or other 
documents.
    Using the development and deployment timeline developed by the 
Library's OCIO, Copyright Office IT modernization activities planned 
for fiscal years 2019 through 2024 include development and unification 
of public interfaces and all Office workflows through an enterprise 
solution. This enterprise solution will consist of modular applications 
including the next-generation registration system, the recordation 
system, the public interfaces, back-end processes, and future 
incorporation of statutory license processing.
    The first phases will focus on registration processing, using data 
collected from the user interface project already underway, with 
development work next incorporating back-end requirements. Development 
will be complex, as the final system must integrate processes for 
complicated copyright examination procedures, copyright deposit 
management, fee payments, and other workflows. Given the scope of the 
system, development for the next-generation registration system is 
expected to span 5 years. Since the next-generation copyright 
registration system will be developed using agile methods, certain 
functionality will be available to Copyright Office staff and to the 
public even before all development activities are completed. As 
resources allow, development work for other processes will proceed in 
order of priority and in keeping with the overall timeline and planning 
documentation.
    In support of ongoing and planned modernization projects, the 
Copyright Office is thus requesting $12.1 million, comprised of a mix 
of fees, prior-year unobligated balances, and new appropriations, as 
referenced above. The request is proposed as recurring over 5 years, at 
a total of $60.6 million. In fiscal year 2024, the Office would request 
that all but $5.4 million non-recur, with the remaining funding 
providing for ongoing maintenance and operations costs of the deployed 
enterprise solution.
Searchable Historical Records
    Recognizing its responsibility for the maintenance of the world's 
largest catalog of records of copyright, the Copyright Office continues 
to prioritize its efforts in securing the Office's historical records 
through digitization and in making those records accessible in an 
online and easily searchable format. For fiscal year 2019, the 
Copyright Office is requesting $5 million, inclusive of $1 million in 
prior-year unobligated balances, to recur over 7 years for the 
searchable historical records project. The requested funding will allow 
the Office to take advantage of technological advances in digitization 
to complete the data capture and digitization of all remaining 
historical records, as well as the development and launch of a new, 
modernized Public Records Catalog IT system.
Copyright Office Staffing
    To fully modernize, the Copyright Office must focus on its systems 
as well as the valuable personnel resources necessary to provide 
quality services to the public at large, copyright owners, technology 
companies, and the Library itself. Through its employees, the Office 
provides expert guidance to the public, Congress, other Federal 
agencies, and the courts in copyright law analysis, examination of 
claims, and document recordation. The Office conducts outreach and 
education and provides customer service to the thousands who annually 
seek information in person, on the phone, and through email.
    In the fiscal year 2019 request, the Copyright Office seeks to add 
much-needed registration specialists. It is an Office priority to 
provide reasonable registration review processing times, and the Office 
continues to focus all available resources on addressing the many 
factors that have caused increasing processing times. While modernized 
systems and processes have proven critical to improving productivity, 
the Office must also maintain adequate numbers of employees trained in 
complex copyright claims examination. The fiscal year 2019 request 
augments the fiscal year 2018 request for additional examination staff, 
allowing the Office to efficiently onboard and train multiple teams of 
examiners.
    For fiscal year 2019, the Copyright Office also is requesting 
temporary funding increases for contract support to accelerate the 
reduction of its recordation workload and assist in the transition to a 
new, automated recordation system. The Office's request for temporary 
contract support also will provide for much-needed inventory software 
as well as a comprehensive inventory of the copyright deposits and 
other materials stored by the Office so that the Office can accurately 
assess current and future storage needs as modernization efforts 
progress.
    Along with the IT modernization request, these requests are part of 
the Copyright Office's multi-pronged planning to ensure modernization 
takes place across all of its operations. To enable appropriate 
analysis of staffing requirements, the Office initiated a number of 
internal assessments of its organizational structure and also recently 
commissioned a report that evaluated the Office's capabilities for 
collecting, monitoring, and analyzing all of its costs. The 
recommendations stemming from the assessments and report will be used 
to further monitor and refine workflows so that the work of all of the 
Office's employees is optimized.
         pending changes to the copyright office fee structure
    The Copyright Office recognizes that fees collected from users of 
its services are an important source of funding for ongoing operations, 
and that the Office must regularly evaluate the sufficiency of its fee 
structure, especially when making requests for additional 
appropriations.
    In November 2017, the Copyright Office completed the first phase of 
an Office-wide fee study, bringing in expert consultants for the first 
time in decades to comprehensively evaluate the Office's fees. This 
initial study considered internal drivers of the Office's costs and 
external factors, such as an assessment of economic trends that affect 
stakeholder value, statutory restrictions, and policy goals. As part of 
this assessment, the Office also directed consultants to consider the 
costs of modernization of the Office's systems. Using recommendations 
resulting from that study, the Office is drafting a Federal Register 
notice requesting public comment on proposed fee changes.
    As part of the Copyright Office's evaluation of fees, the Office 
supports possible changes to its overall funding legislation. For 
example, the Office would benefit from greater flexibility in the use 
of prior-year unobligated fee balances, which could allow the Office to 
provide services to the public in the event of a lapse in 
appropriations. Flexibility in management of prior-year balances across 
budget cycles also could provide for more efficient and cost-effective 
administration of large, non-recurring projects related to 
modernization and other capital expenditures. To that end, the Office 
submitted a request for a change in the fiscal year 2019 appropriations 
language to allow for 20 percent of the balance available in prior-year 
fees to be available each year, in addition to appropriated amounts, 
for obligation without fiscal year limitation, and to allow the Office 
to access prior-year balances to continue operations during a lapse in 
appropriations.
    The Office also is interested in pursuing additional fee-setting 
options, such as through the use of subscription fees, differential 
fees, or additional fees for high-volume access to improved and 
modernized data. The Office would welcome explicit authorization from 
Congress permitting the Office to contemplate a wide range of fee types 
to further the use of the copyright system.

                         *    *    *    *    *

    The Copyright Office understands the significance associated with a 
budget request of the size and scope necessary to position the Office 
for success in an increasingly digital world. The Office is committed 
to its own continuous improvement and to an honest assessment of its 
needs and costs of services, and greatly appreciates the Committee's 
consideration of this request, as well as the ongoing support for the 
success of the Office and for the national copyright system.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Chairman Daines, Ranking Member Murphy and Members of the 
subcommittee,
    Thank you for the opportunity to present the Congressional Research 
Service (CRS) fiscal 2019 budget request. I would also like to thank 
the Committee for your support of CRS's fiscal 2018 budget request. CRS 
is working aggressively to implement the much needed modernization of 
our IT infrastructure and to ensure the public availability of CRS 
Reports within the timeframe directed by Congress. My testimony will 
present our request for fiscal 2019, and summarize for you some of the 
more notable support that CRS has provided to the Congress over the 
past fiscal year. In addition, I will bring you up to date on a number 
of initiatives that we are undertaking to ensure that CRS continues to 
provide you with exceptional analytical, consultative and information 
support in the future.
    In fiscal 2017, Congress called upon CRS for research and 
analytical expertise at every stage of the legislative and oversight 
process and across all public policy issues on its agenda. CRS experts 
provided more than 61,400 custom products and consultations in response 
to specific requests from Members and staff, produced and maintained 
more than 11,100 reports and products, and held more than 250 events 
for nearly 8,600 congressional participants. CRS served over 99 percent 
of all Member and committee offices.
                       fiscal 2019 budget request
    The CRS budget request for fiscal 2019 is $125.68 million, with 
almost 90 percent devoted to staff pay and benefits. To ensure that our 
research staff can meet the needs of Congress, in fiscal 2019, CRS 
requests $2.743 million for the addition of 20 FTEs to strengthen the 
Service's research capacity for highly complex current and emerging 
issues. These personnel additions will significantly advance the 
Service's efforts to restore the research and analytical capacity, lost 
through attrition in recent years and better enable us to plan for the 
anticipated departure of a significant portion of the CRS workforce. 
These new positions will also allow CRS to enhance the diversification 
of subject matter expertise throughout the Service and maintain robust 
research across legislative areas. Consequently, CRS will be better 
positioned to provide timely and comprehensive support to Congress on 
key policy issues in the future. Support for the Service's fiscal 2019 
program request would permit CRS to increase research capacity in the 
following areas:
  --Four (4) positions to support domestic policy in the areas of 
        healthcare insurance and financing, healthcare services, and 
        education policy;
  --Four (4) legislative attorneys focusing on military and veteran's 
        law, tax and bankruptcy law, and constitutional law;
  --Two (2) positions, an analyst and an economist, to enhance coverage 
        in oversight issue areas related to international development 
        assistance and global emerging economies;
  --Two (2) analysts to cover emerging national security and 
        intelligence issues related to cybersecurity, foreign arms 
        exports and military assistance;
  --Four (4) positions, analysts or economists, to broaden the depth 
        and scope of coverage in government oversight issues, 
        macroeconomic policy, economic development policy and 
        legislative process support; and,
  --Four (4) analysts to augment the specialized knowledge necessary to 
        better support legislative work in the areas of agriculture, 
        science and technology, energy, transportation and 
        infrastructure.
    CRS is committed to maintaining and strengthening the breadth and 
speed of delivery for all research products and consultations. With the 
appointments of additional content area specialists and a focus on 
innovation and responsiveness, CRS will be able to ensure a seamless 
succession of expertise and continue to comprehensively meet Congress's 
needs in an increasingly fast-paced legislative environment.
                           budget challenges
    CRS's greatest asset is the breadth of our analytical talent. 
Congress has long considered CRS staff to be an extension of its own, 
offering not only subject matter expertise, but intimate knowledge of 
the legislative process as well as decades of institutional memory 
gained from working side-by-side with Members and congressional staff. 
However, since 2010, CRS has lost more than 13 percent of its staff due 
to flat budgets and inflationary pressures. Although CRS has been able 
to mitigate some of the impact due to staff reduction, the Service has 
not been able to replace staff on a one-to-one ratio.
    In addition, 23 percent of CRS staff will be eligible for 
retirement in fiscal 2018. Consequently, the Service must plan for 
workforce succession that will ensure continuity in subject matter 
expertise, a critical challenge that will only grow as CRS research 
staff retires. When CRS is unable to fill vacancies in advance of 
announced retirements, current CRS experts must absorb additional 
subject area responsibilities until the new hires are brought onboard 
as well as devote time to support knowledge transfer to the new 
analysts.
    As I noted, CRS products and services are frequently and heavily 
utilized by virtually all congressional offices and committees and it 
is expected that demand will remain at these levels or increase in the 
future. Consequently, CRS must act now to arrest the reduction of 
personnel and aggressively supplement research capacity. Congress's 
approval of the eight entry-level positions in the Consolidated 
Appropriations Act, Fiscal 2018 was an important first step in this 
effort. However, the additional FTE's requested as part of the fiscal 
2019 budget is necessary to restore CRS's staffing to near pre-2010 
levels.
    With such staffing challenges and without additional funding, CRS 
anticipates:
  --Additional gaps in the scope and depth of analysis;
  --An inability to offer full research coverage, in particular in 
        high-demand areas, such as education, healthcare, taxes, 
        infrastructure and natural resources;
  --An increased need to prioritize assignments, resulting in less 
        timely responses; and,
  --A diminished ability to effectively perform all of the functions 
        required of CRS by statute.
    Meeting the needs of Members and staff is CRS's highest priority, 
and the Service remains committed to providing timely responses, 
products and consultations on the broad range of issues before 
Congress. Yet, while the eight new appointments authorized in the 2018 
appropriation will certainly mitigate the impacts noted above, CRS 
capabilities to meet congressional requests will continue to be 
stretched thin.
                          service to congress
    In the last fiscal year, CRS continued to explore opportunities to 
better fulfill its mission to provide comprehensive and reliable 
legislative research, analysis and information services that are 
confidential, objective, nonpartisan, authoritative and timely. The 
Service provided significant support to Congress on a broad range of 
policy issues such as the Federal budget, healthcare reform, Federal 
programs requiring reauthorization, environmental regulation, 
immigration, border security, Federal land management and intellectual 
property. CRS experts also provided critical research, analysis and 
consultative assistance on emergent issues, including the nomination of 
a new Supreme Court justice, the opioid crisis, developments in the 
Middle East and North Korea, and Federal emergency management 
challenges brought about by multiple natural disasters. In addition to 
providing research and analytical expertise, the Service supported 
Congress's work through its online services. CRS continues to 
contribute to the development and daily operation of Congress.gov, the 
next-generation platform for legislative information.
    CRS undertook a substantial revision of content for ``The 
Constitution of the United States of America: Analysis and 
Interpretation (CONAN),'' the statutorily required document in which 
CRS attorneys provide legal analysis and interpretation of the 
Constitution, based primarily on Supreme Court case law. This 
initiative was undertaken in concert with a broader effort to develop 
an initial prototype for the design and search functionality of the 
next-generation CONAN website. A modernized CONAN will enable greater 
ease of access and utility for Congress and the public.
    The Service worked to leverage advances in technology and present 
its research and analysis to best suit Congress's needs. In fiscal 
2017, CRS joined the Skype for Business Federation with the House, 
Senate and Architect of the Capitol, opening new pathways for 
interacting with congressional clients. In addition, CRS conducted a 
pilot of a new podcast product, providing congressional clients mobile 
access to discussions of legislative issues by CRS analysts.
    Finally, CRS continued to develop geographic information systems 
(GIS) products and tools to respond to congressional interest in 
geospatial analysis. The Service completed 185 GIS-related requests on 
issues of interest to Congress including Federal lands, energy, 
military installations, education, national monuments, floods and wild 
fires.
                       crs strategic initiatives
    To ensure that CRS is able to offer a high level of support across 
the full range of issues before Congress, the Service has undertaken a 
number of strategic initiatives including product and technology 
enhancements, staff training and development, strategic planning and 
the identification of workplace efficiencies. In 2017, CRS continued to 
execute its Strategic Plan. Initially, the Service focused on enhancing 
the skills of its professional workforce through several special 
programs, including leadership development training for first-line 
supervisors and nonsupervisory staff, and expansion of the new employee 
mentoring program to include guidance for existing staff members. In 
addition, CRS continued its Core Writing Curriculum program, in which 
senior staff members provide newer analysts with tools and best 
practices in preparing effective analytical writing for congressional 
clients. Efforts in 2017 also focused on improving internal 
communications and examining ways to increase staff diversity and 
inclusion.
    As part of the execution of its Strategic Plan, CRS took steps to 
maximize efficiency and strengthen internal collaboration and 
coordination, by consolidating its Finance and Administration and 
Workforce Management and Development offices into one organizational 
unit, the Office of Administrative Operations; and combining the 
Program Office and Communications Office into the Congressional 
Programs and Communications Office. In addition, following a successful 
pilot, research librarians in the Knowledge Services Group were moved 
permanently to the research divisions, to better align with the work of 
analysts and meet the divisions' research priorities and requirements.
    In 2017, the Service actively participated in the Library of 
Congress's ``Envisioning 2025'' strategic planning initiative which 
informed the Library's future direction and priorities. To inform the 
companion Directional Plan for CRS, a senior leader retreat was held to 
discuss the Service's products and services, staff composition and 
organization and other strategic topics to guide the work of the agency 
moving forward. CRS continues to proactively identify strategic 
initiatives that will best position the Service to serve Congress's 
needs well into the future.
    In addition, CRS has been working closely with the Library's Chief 
Information Officer to ensure that CRS reports are made available to 
the public within the timeframe directed by Congress in the fiscal 2018 
appropriations act.
                               conclusion
    CRS remains dedicated to fulfilling the important responsibility 
that Congress has entrusted to the Service. However, years of steadily 
decreasing staffing levels and the impending retirement eligibility of 
a significant portion of our workforce has placed the Service in a 
precarious position. In recognition of the budgetary constraints under 
which we have operated, we are constantly exploring ways to function 
more efficiently while continuing to be responsive to the needs of an 
ever evolving Congress. We have adapted our product line to better meet 
congressional needs, adopted state-of-the-art research methodologies 
and utilized new formats to present our research and analysis. The 
modernization of technology systems promises to streamline CRS workflow 
and position the Service to offer more advanced research products.
    Yet these efforts will be of limited utility without the research 
and analytical expertise necessary to fully execute our mission. 
Recovering critically needed staff capacity and replenishing analytical 
experience will ensure that these investments reap their greatest 
benefit for Congress and that CRS is positioned to continue providing 
the level of research and analytical support to which Congress has 
become accustomed.
    Mr. Chairman, Ranking Member Murphy and Members of the 
subcommittee, CRS is honored and proud to serve the United States 
Congress. I thank you again for your support of CRS and for your 
consideration of our fiscal 2019 request.

    Senator Daines. Thank you, Dr. Hayden.
    Mr. Ayers.
                              ----------                              


                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL
    Mr. Ayers. Thank you, Chairman Daines, Ranking Member 
Murphy, and Senator Hyde-Smith.
    I appreciate the opportunity to present the Architect of 
the Capitol's fiscal year 2019 budget request and, first, I'd 
like to thank the subcommittee for your support of our needs in 
the 2018 Omnibus. The projects and efforts you were able to 
fund will be critically important to our success this year and 
next.
    The funding will also assist our more than 2,100 talented 
employees with reducing the constraints that impede their 
ability to get their jobs done every single day.
    We take pride in our mission to serve Congress and the 
Supreme Court, preserve America's Capitol and to inspire 
memorable experiences for all of those that visit. I'm 
incredibly pleased to report that our achievements last year 
have been terrific and significant.
    In 2017, we successfully completed the conservation of the 
U.S. Capitol's Brumidi Corridors, and several major projects 
across campus reached important milestones. We made significant 
progress on the stone preservation projects at the Capitol, as 
the Chairman noted, and at the United States Supreme Court, the 
Russell Senate Office Building and the United States Botanic 
Garden Conservatory.
    Also, the major equipment needed for the co-generation 
system at the Capitol Power Plant has been installed and we're 
looking forward to testing that system this summer.
    Unfortunately, our annual costs continue to rise and our 
work is often backlogged. Our request represents the resources 
we think we need to support our infrastructure and fulfill our 
mission.
    The ability to retain sufficient people to keep up with 
increased security requirements is essential. Reducing the risk 
of infrastructure failures that lead to larger and more costly 
repairs is equally as essential.
    Additionally, with annual visitation at the Capitol growing 
by 12 and a half percent last year, and another 8 percent on 
top of that so far this year, more employees are needed to 
continue to provide the first-rate customer service that 
visitors expect.
    We have to bolster our common central services that improve 
our agency efficiencies and decrease our jurisdictional 
operating costs. These services include specialized 
construction, project management, historic preservation, 
safety, cyber security, IT and support functions, just to name 
a few.
    Adequate funding for these services is critical to the 
successful delivery of our capital projects.
    For fiscal year 2019, our risk-based prioritization process 
identified a $173 million of projects that are primed and ready 
for funding in 2019. Of this, approximately $49 million is 
requested for projects that were requested in 2018 but did not 
receive funding. This includes the North Exit Stair improvement 
at the Library of Congress's Jefferson Building, which would 
address an open citation from the Office of Compliance.
    In the Senate, we're seeking funds for the final phase of 
the Russell Exterior Stone Project and to replace the Hart 
Senate Office Building's air-handling units to ensure reliable 
service well into the future.
    We also continue to prioritize security upgrades across the 
Capitol Campus with our ongoing effort to replace vehicle 
barriers and kiosks that have reached the end of their intended 
life cycle.
    In addition, for a third year, we're pursuing funding to 
implement the replacement of a critical infrastructure project 
at the Alternate Computer Facility, an important component of 
maintaining reliable congressional operations.
    While to an untrained eye, our buildings look to be in 
great condition, delays in our annual preventive maintenance 
and continued phasing of our large projects are deeply 
concerning to us.
    Funding our needs as they're identified in our budget will 
ensure our stakeholders and our visitors to Capitol Hill will 
experience the grandeur of these great buildings as well as to 
meet the modern needs of a modern workforce.
    Thank you, Mr. Chairman. I look forward to any questions 
you may have.
    [The statement follows:]
              Prepared Statement of Hon. Stephen T. Ayers
    Chairman Daines, Ranking Member Murphy, and Members of the 
subcommittee, I appreciate the opportunity to present the Architect of 
the Capitol's (AOC) fiscal year 2019 budget. Our request of $720 
million is a modest representation of the resources needed to support 
our infrastructure and adequately fulfill our mission to serve Congress 
and the Supreme Court, preserve America's Capitol and inspire memorable 
experiences.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   View of the U.S. Capitol Building from the U.S. Botanic Garden's 
                             Bartholdi Park

    This year, the AOC celebrates the 225th anniversary of President 
George Washington accepting Dr. William Thornton's design for the U.S. 
Capitol. Honored as the first Architect of the Capitol, Dr. Thornton 
could hardly have imagined how much the U.S. Capitol and our campus 
would change and expand from his design, adopted on April 2, 1793. 
Today, we operate and care for more than 18.4 million square feet 
across 37 facilities and 570 acres of grounds.
    Every day the AOC works to preserve our historic and aging 
infrastructure, while upgrading facilities to meet the needs of a 21st 
century workforce and address rapidly evolving security requirements. 
In fiscal year 2018, Congress provided a significant budgetary increase 
that will help reduce operational constraints that impede the ability 
of our more than 2,100 skilled employees.
    The talented men and women of the AOC strategically plan, allocate 
and manage our resources across the agency to support high-profile 
events, construct and develop critical infrastructure projects, and 
meet the daily needs of building occupants and visitors. Last year, we 
successfully supported preparations for the 58th Presidential 
Inauguration, completed the conservation of the U.S. Capitol's Brumidi 
Corridors, and introduced a new automated system for congressional 
staff to quickly and easily obtain passes for their tour groups.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Capitol Exterior Stone & Metal Preservation Project

    We reached milestones on several major projects across campus 
including stone preservation projects at the U.S. Capitol, U.S. Supreme 
Court, Russell Senate Office Building and U.S. Botanic Garden 
Conservatory. Also, the necessary major equipment needed for the 
cogeneration system has been installed.
    Unfortunately, these successes do not seem as grand when measured 
against our limited ability to keep pace with mounting needs. 
Additional increases are needed in fiscal year 2019 to address critical 
operational and capital deficiencies that could negatively impact our 
performance. AOC employees are in a race against time as the 
infrastructure rapidly deteriorates and projects continue to 
accumulate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Performing Routine Maintenance Improves the Safety and Security of Our 
                             Infrastructure

    AOC professionals are our greatest asset. We strive to provide 
streamlined, efficient operations and maintenance activities. Fully 
funding payroll obligations and bolstering support for maintenance 
activities reduces the risk of infrastructure failures that will 
require larger and more costly repairs.
    Each year, inflationary personnel and preservation costs continue 
to rise. The ability to sustain adequate personnel to keep up with 
increased security requirements is essential to support U.S. Capitol 
Police facilities and congressional resiliency requirements.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Visitors at the U.S. Botanic Garden Participate in a Hands-On Garden 
                                Exhibit

    Additionally, with annual visitation growing by approximately 12.5 
percent last year, increases are needed for the U.S. Capitol Visitor 
Center, the U.S. Botanic Garden and the Library of Congress to continue 
to inspire current and future visitors by providing first-rate customer 
service, hospitality and visitor engagement. The ability to improve 
their facilities and grow the exhibit and education capabilities 
requires additional resources to maintain the high level of quality 
visitors expect, desire and deserve when visiting their nation's 
capital.
    Any further reductions in common central services, funded through 
the Capital Construction and Operations appropriation, threatens agency 
efficiencies and increases jurisdictional operating costs. These 
services include supporting the AOC's specialized construction, 
curatorial, design, energy and sustainability, facilities planning, 
high voltage, historic preservation, project management, safety, fire 
and environmental, cybersecurity, and technical support functions.
    The increased funding in fiscal year 2018 will allow us to slow the 
need to move funds targeted for supplies, routine maintenance, 
upgrades, inspections and emergency repairs to cover annual 
inflationary increases while mitigating negative impacts to our mission 
requirements. We will continue to work to reverse this trend and 
prevent a reactionary posture that largely addresses issues as failures 
occur. We must not fall back into a position that increases the risk of 
system failures that will require larger and more costly repairs.
    Our fiscal year 2019 request includes a $21 million increase to 
specifically address costs for supplies, routine maintenance, upgrades, 
inspections and emergency repairs that continue to escalate.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Capitol Power Plant Refrigeration Plant Revitalization Project

    To an untrained eye, our buildings look to be in great condition, 
but across campus we continue to face a growing list of work-arounds 
that are needed to circumvent problems and simply maintain current 
operations. With additional funding we can begin to change this dynamic 
and ensure we maintain all systems responsibly, thereby reducing the 
need for more numerous and expensive Line Item Construction Program 
(LICP) projects on an annual basis.
    Delays in annual preventive and corrective maintenance initiatives 
and the continued phasing of major replacement and renovation projects 
wreak havoc on infrastructure systems. To address this, the agency's 
risk-based prioritization process identified $173 million in LICP 
projects primed for fiscal year 2019 funding. Of this, approximately 
$22.7 million (13 percent) will be used to complete the next phases of 
critical infrastructure projects needed at the Capitol Power Plant.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 Increased Exit Options in the Thomas Jefferson Building are Needed To 
              Improve the Safety of Occupants and Visitors

    Projects that were requested in fiscal year 2018 but did not secure 
funding represent an additional $49 million (28 percent), including the 
North Exit Stair Improvement project at the Library of Congress' Thomas 
Jefferson Building. This project would address an Office of Compliance 
citation to increase exiting egress capacity and improve fire 
protection systems. Funding this project would reduce delays and 
overcrowding conditions during emergency evacuations.
    In the Senate, the Hart Senate Office Building's air handling units 
require replacement to ensure reliable service and system control. The 
Hart Building is almost 40 years old, and many of the internal systems 
are nearing the end of their useful lives. If these needs are not 
addressed in a timely manner, failures will become more likely and 
routine repairs will become more extensive and costly.
    Also in the Senate, during deliberation over the fiscal year 2018 
Consolidated Appropriations Act the final phase of the Russell Senate 
Office Building's exterior stone restoration project was removed from 
fiscal year 2018 consideration and will need to be added to our fiscal 
year 2019 request.
    We continue to prioritize security upgrades across the Capitol 
campus and the ongoing effort to replace vehicle barriers and kiosks 
that have reached the end of their intended life cycle. Additionally, 
we are seeking funding for the first phase of the replacement of all 
chillers and associated distribution piping within the Alternate 
Computer Facility, an important component in ensuring efficient, 
reliable congressional operations.
    Adequately funding the AOC's needs as they are identified will 
ensure the stakeholders and visitors to Capitol Hill experience the 
grandeur of these historic treasures while meeting the needs of a 
modern workforce. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 Aerial View of the U.S. Capitol Campus

    Senator Daines. Thank you, Mr. Ayers.
    In the spirit of time management, I'm going to yield to our 
two subcommittee Members here before the Ranking Member and 
myself ask our questions.
    Senator Hyde-Smith, I yield to you.

                          SURPLUS BOOK PROGRAM

    Senator Hyde-Smith: Thank you, Mr. Chairman. Thank you for 
holding this hearing and, Dr. Hayden and Mr. Ayers, thank you 
for coming and discussing your 2019 budget with us.
    You know, you just have such important roles in researching 
and preserving the history of our Nation for future generations 
and your Surplus Book Program has been very beneficial to my 
constituents in Mississippi. We've taken advantage of that. I 
also appreciate the work of the Architect of the Capitol to 
ensure that my constituents have that positive experience as 
they visit the Capitol and the surrounding buildings. I'm also 
grateful for the hard work of the AOC Team is doing to move my 
staff and me into the new office as quickly as possible so we 
can better serve the people of Mississippi.
    I truly look forward to working with you and your 
respective positions and I thank you for your service. I think 
you're doing a great job.
    Mr. Ayers. Thank you.
    Senator Daines. I want to thank the Senator for bringing up 
the Surplus Book Program. It's important in Mississippi. I know 
in Montana over the last 3 years we've been able to send books, 
over 4,000 books in fact, to 20 different small towns and these 
are small towns in rural areas as well as in reservations.
    There's an old famous country-western song that says 
everybody dies famous in a small town. I can tell you a little 
bit from Washington, DC, goes a long way in these rural 
communities. It's a big deal back home and I thank you for 
pointing that out. We appreciate it in Montana as well.
    Senator Van Hollen.

                     CONGRESSIONAL ACKNOWLEDGEMENT

    Senator Van Hollen. Thank you, Mr. Chairman.
    Dr. Hayden, thank you for your service and thank you for 
your initiatives to really open up the Library of Congress and 
the national treasures of the Library of Congress to the 
American people. I think that initiative is already bearing 
fruit and I'm grateful and also appreciate the Young Readers 
Program because we've had a lot of folks from Maryland and 
other areas obviously coming in for that. So thank you for 
that.
    And to Mr. Ayers, again, thank you for trying to make sure 
this, you know, Capitol is as open and welcoming to the 
American people as it can be.
    I don't have any questions at this point, but I do 
appreciate your very good work and look forward to working with 
the Chairman and the Ranking Members and other Members of the 
subcommittee on the budget request.
    Mr. Ayers. Thank you, Senator.
    Senator Van Hollen. Thank you.

                        LIBRARY'S BUDGET REQUEST

    Senator Daines. Thank you, Senator Van Hollen.
    One thing about this subcommittee and the witnesses here is 
it's a very tangible area--we see the impact here. We walk 
around every day and see the important work that you do for 
this institution as well as for the people of this great 
country.
    Dr. Hayden, your request includes increases for a number of 
projects as well as about $22 million in mandatory pay and 
price level increases across the Library.
    The projects include $4 million and 40 full-time 
equivalents (FTE) for collection arrearage reduction, $12 
million for copyright modernization, and $2.7 million and 20 
FTE for increased capacity at CRS.
    You've also included $10 million in your base from last 
year for the Library's Visitor Experience Project, which we had 
a chance to talk at length about when we visited.
    Understanding we may not be able to accommodate the entire 
requested increase, how would you prioritize the needs of the 
Library?
    Dr. Hayden. In terms of mission-critical elements of the 
budget, of course, the mandatory increases for staff and being 
able to make sure that is part of what we always maintain, if 
possible. Looking at the arrearage and having access to the 
collections, that's vital, as well as copyright modernization 
and continuing on the progress that has been made so far.
    We are in a stage with copyright IT modernization that is 
exciting. It's challenging, but it needs to continue, and, of 
course, CRS and having the capacity to serve Congress. Those 
are mission-
critical aspects.
    Senator Daines. Certainly when we have an economy that's 
growing and actual labor shortages across our country, it 
highlights the importance of taking care of our own employees. 
Without the mandatory pay increase, would there be potential 
for a hiring freeze and furloughs if we didn't accomplish that?
    Dr. Hayden. We would try to avoid as much as we could 
looking at a hiring freeze but that is an option, as well as 
being able to absorb and make sure that across the board some 
of the inflationary increases could be handled and that's what 
the Library has done in the past and has been able to spread 
those non-programmatic increases.
    Senator Daines. Right. And again that highlights the 
importance of ensuring we're taking care of our own employees--
--
    Dr. Hayden. Right, right.

                 LIBRARY OF CONGRESS VISITOR EXPERIENCE

    Senator Daines [continuing]. And retention, as well.
    Dr. Hayden, remaining on the subject of the Visitor 
Experience, this subcommittee provided $2 million in the fiscal 
year 2018 Omnibus to begin the design and planning of the 
project.
    It's anticipated that this master plan will be complete in 
May of 2019 for review.
    Dr. Hayden. Yes.
    Senator Daines. The plan will include details of an 
acquisition, design and construction timeline, and further 
refine cost estimates.
    The question is are you still on track to complete the 
master plan by May of next year? Time goes by quickly--we're a 
year away.
    Dr. Hayden. And I have to reiterate how grateful we are for 
being able to take advantage of this opportunity to have a 
public-private partnership. We have already great interest in 
the private sector to help support and supplement this effort 
and so we're very grateful for that and the contract for a 
company to work with us, an exhibit design company basically, 
is almost ready to be let and we are moving ahead quite 
aggressively.
    We also have been taking advantage of the opportunity to 
visit different museums, some that are recently opened, and 
other facilities that have utilized technology in very 
effective ways. So this project is on track and we really thank 
you for this opportunity.
    Senator Daines. Do you think, Dr. Hayden, that we can get 
this done in 12 months?
    Dr. Hayden. Yes.
    Senator Daines. Okay. Thank you. You're requesting an 
additional $10 million in fiscal year 2019 for this project.
    Could you provide some details on what this funding would 
go towards and why it is needed this year when completion of 
the plan is not anticipated until next year?
    Dr. Hayden. Part of the contractual aspect of working on 
exhibit design requires that you are able to plan out a number 
of months and even years in the construction of the exhibits.
    This project, as we discussed this during your visit, is 
less about architectural changes or tearing down walls, things 
like that, and more about the exhibit fabrication and so the 
plan, there are parts of the plan--for instance, the Treasures 
Gallery where we'll be able to exhibit some of the wonderful 
things that we know will be part of that Treasures Gallery. 
That planning and the construction and some of the details that 
go into the planning will be part of this.
    Senator Daines. Do you still anticipate requesting a total 
Federal investment of about $40 million with private donations 
totaling around $20 million?
    Dr. Hayden. Yes, and we are very confident and we have 
great philanthropic interest and support that that fund-raising 
goal will be met even in a shorter period of time, possibly 
within the next year.
    Senator Daines. Thank you.
    Ranking Member Murphy, we lost about half our crowd when I 
started speaking. So I think your theory here may be incorrect 
that I was the draw.
    Senator Murphy.
    Senator Murphy. Thank you, Mr. Chair.
    I just want to get a couple more points of clarification on 
the line of questioning regarding the visitors experience.
    Did you share with us what the timeline is on the necessary 
documentation to unlock the second eight million? I'm not sure 
if I followed that. You've got two million to provide some 
documentation to the subcommittee, of which unlocks the----
    Dr. Hayden. And the understanding is that that would be 
within a 3-year period, but the estimates now are definitely 
that it can be executed in a year, that other time period.

            VISITOR EXPERIENCE--AOC AND LIBRARY COOPERATION

    Senator Murphy. Gotcha. And to stay on this topic, Mr. 
Ayers, can you just talk about your cooperation, to the extent 
it's happened so far, on this project, and then, you know, 
let's say this is a huge success, are there other renovations 
that need to be made to the building, if we have a lot more 
visitors than we have on an annual basis right now?
    Mr. Ayers. I'd be happy to. Dr. Hayden and I have met with 
her exhibits designer and gone through the three major moves 
that are on the table at the moment--the Treasures Gallery, the 
Reading Room and the Youth Center--and we're really comfortable 
with those. We think it's a great vision, Number 1.
    My team has subsequently met on several occasions with the 
Library staff to begin to work with them on the master plan 
that they're about to embark on, and through that process they 
will also engage in the design work of those exhibits. That's 
where we'll really redouble our efforts to stay closely engaged 
in the work as that's when we'll sort out any fire and life 
safety, structural, mechanical, electrical, and plumbing 
issues, and we'll work closely with them to the end.
    I think your second question, Senator Murphy, are there 
other building things that may need to be done, I would offer 
two points.
    One, we completely renovated the Jefferson and Adams 
Building in the 1990s, so they're in fairly good shape. I don't 
think we're going to experience a complete building 
modernization, but I would say, and I'm quite confident Dr. 
Hayden would agree, there are such rich treasures at the 
Library that we could open three Treasure Galleries, four 
Treasure Galleries, or five, to bring this material out of the 
stacks and to the American people in an easy and understandable 
way, and I think the possibility does exist that there are 
future restorations that could help bring this material out.

                         WORLD DIGITAL LIBRARY

    Senator Murphy. Sorry to interrupt our flow and move it 
over to Mr. Ayers. I'll come back to you, Dr. Hayden.
    Talk to me a little bit about the World Digital Library 
Program.
    Dr. Hayden. Yes.
    Senator Murphy. So this is a project that you were in for 
as a temporary manager, which turned out to be what started to 
look like more of a permanent leadership role and you've scaled 
back.
    So tell me about what the future of this project is without 
the at least named leadership of the Library of Congress 
because it appears to me to be a really worthwhile endeavor 
that I worry might suffer without the day-to-day leadership of 
the Library and the United States.
    Dr. Hayden. Well, the Library of Congress took a leadership 
role in getting a consortium together of major research 
libraries and reference libraries throughout the world to start 
the World Digital Library and you're right in terms of the 
temporary nature turned into a decade of managing the program.
    What that decade gave the Library of Congress and also the 
library community that's part of it is an opportunity to really 
work out the mechanics. There were changes, as you can imagine, 
in this last decade in terms of technological requirements and 
now the Board of the World Digital Library is working with 
another research institution that may be able to take on the 
day-to-day management of the project.
    The Library of Congress will still be a major contributor 
of information. It's digitizing treasures from around the world 
and these libraries are part of that. So the Library will be 
involved during the next year as the Board of the World Digital 
Library works out the details of the transition of the 
management. The Library of Congress will still provide some 
technical support and management support.
    Senator Murphy. You don't worry about their ability to 
continue?
    Dr. Hayden. The proposed partners that--I'm not at liberty 
to name it because all the details haven't been worked out--is 
very substantial organization and the Board looked at that in 
terms of making sure that the management continues. So we're 
still going to be very much a part of it.

                        COPYRIGHT MODERNIZATION

    Senator Murphy. Great. One more question, and I'm sure we 
have questions for Mr. Ayers.
    Going back to the Next Gen Registration System, can you 
just talk to me about what input that you have asked for and 
received from the creative industry community, how you've 
incorporated their feedback, and how they're going to continue 
to be involved in this process because obviously our intent 
here is to make sure that the user of the system is the main 
focus?
    Dr. Hayden. The Copyright Office--and I'd like to also take 
this opportunity to commend Karen Temple, the Acting Registrar 
of Copyright, and she's here today, who's been really leading 
this effort and making sure that everything stays on track.
    The entire spectrum of the copyright community has been 
involved and getting input at various stages and we are now at 
the point of actually getting to the modernization of the 
Copyright Registration System and to not lose sight of the 
recordation system, which is paper-based and manual right now, 
and so the Copyright Office will be moving ahead and has 
definitely made great strides.
    Senator Murphy. Is there a process moving forward--I mean, 
obviously as you roll this out, you're going to expect some 
bumps and hiccups. So I guess my question is, is the creative 
community that is often,----
    Dr. Hayden. Yes.
    Senator Murphy [continuing]. You know, the loudest in part 
in raising objections to the slowness of the existing system 
going to have some mechanism to give you feedback?
    Dr. Hayden. Yes, and there's constant actual feedback. As 
you mentioned, they're very vocal, but all parts of the 
community have been very generous, I think, with their support 
and also making sure that along the way it's a process of 
checking with the community as we go along and beta testing and 
things like that. So they will be involved and they are.
    Senator Murphy. Great. That's all I have for Dr. Hayden.

                 IT MANAGEMENT AND GAO REPORT PROGRESS

    Senator Daines. One more question, Dr. Hayden. Mr. Ayers, 
you're not off the hook yet here. Okay?
    Dr. Hayden, the Library's made great strides in improving 
its IT management, investing in enhancements to functionality 
as well as security. Many of these improvements are based on 
the recommendations made by GAO, who we just had up here a 
couple weeks ago, in their March 2015 report.
    Can you provide an update on the GAO recommendations and 
how many the Library has closed to date?
    Dr. Hayden. The GAO report and the progress, working with 
them very closely on the recommendations, is a wonderful 
success story.
    I mentioned in the opening statement that 24 of the 31 
recommendations are either approved or waiting approval from 
GAO and we've had weekly meetings with them throughout the 
process and they have indicated that they're pleased with the 
progress. So we look at that report as a guidepost and a map 
for improving IT.
    Mr. Barton is behind me and he has definitely made that a 
major priority.
    Senator Daines. And he's smiling, too, I might add.
    Dr. Hayden. Well, he is smiling. He told me when I was 
confirmed in this position that IT will not be a problem and 
I've kept him to that. I have weekly meetings with him, as 
well.
    Senator Daines. Having spent 12 years in the cloud-
computing business, take care of your IT folks.
    Dr. Hayden. Yes.
    Senator Daines. That's good advice. It really is.
    Dr. Hayden. I keep Mr. Barton close.
    Senator Daines. That's great. So you've got 24 of the 31, 
getting close.
    Dr. Hayden. Right.
    Senator Daines. What's your plan for addressing the 
remaining recommendations, and do you have an estimated 
timeline where you could get them all completed?
    Dr. Hayden. Yes, the completion is, of course, the approval 
of GAO. The submission of the remaining will be by the end of 
this calendar year and that's the estimate that they will be 
submitted.
    Senator Daines. Great. Thank you. Appreciate that.
    Dr. Hayden. So it's a good story.
    Senator Daines. I was most impressed. I think we get over 
$120--$128 back for every dollar invested in GAO. So at that 
rate, we should put billions of dollars in there Senator 
Murphy.

              CAPITAL CONSTRUCTION AND OPERATIONS FUNDING

    Mr. Ayers, one of the largest increases in your request is 
for the Capital Construction and Operations Jurisdiction, 11 
percent over the fiscal year 2018 enacted level. This 
jurisdiction does not generally have its own capital projects 
and the funding is for the support functions it provides to 
other jurisdictions.
    The question is can you explain in more detail why this 
jurisdiction is so important to the AOC's mission and what the 
requested increase would provide?
    Mr. Ayers. Thank you, Mr. Chairman. We have this saying 
that any project that you fund in one of our jurisdictions has 
a tail of five other business units that work to support that. 
All of those five business units are within our Capital 
Construction and Operations (CCO) appropriation and so we may 
have $200 to $300 million of design or construction projects 
that are funded through our jurisdictions.
    The people that manage those projects are in our CCO 
appropriation and we are really struggling today with the 
amount of design and construction work that's on the plate with 
a very significant project increase in 2018 but no increase in 
CCO resources.
    We're struggling to have the requisite number of people to 
oversee our design and construction work. I think that's one of 
the biggest things.
    To get those project managers and construction managers, 
you have to have people in your HR department that are capable 
of hiring the right people.
    Similarly, they're all supported by our IT Department. On a 
$300 million construction project, you're going to have 
hundreds of invoices that come through every single month that 
have to be processed and paid. That takes people in your 
budget, finance and accounting departments, to handle all of 
that, and while our project workload has increased, the number 
of people in our CCO appropriation has stayed flat. We are 
struggling today and we're trying to convince you to make it 
right in 2019.
    Senator Daines. Thank you. In relation to the investments 
you intend to make for cyber security, I understand you're 
working from recommendations made by the Legislative Branch 
Cyber Security Working Group.
    In fact, I believe you're also working to be in compliance 
with the Federal Information Security Management Act (FISMA) 
and National Institute of Standards and Technology (NIST) 
guidelines, though not required of Legislative Branch agencies, 
is that correct?
    Mr. Ayers. That is correct, Senator, yes.

                         PREVENTIVE MAINTENANCE

    Senator Daines. All right. You mentioned in your testimony 
that you would like to position the AOC to move to becoming 
more preventive rather than reactive when it comes to 
maintenance and repairs to our facilities. This means more 
investment in people and the day-to-day operating budgets for 
each jurisdiction, which in turn would reduce costs of the 
larger line item construction projects.
    Can you expand on how this preventive maintenance reduces 
the costs of larger projects and perhaps an example or two of 
how infrastructure has suffered from what you refer to as work-
around repairs?
    Mr. Ayers. Thank you, Mr. Chairman. Our Preventive 
Maintenance Program is robust and covers thousands, if not 
hundreds of thousands, of pieces of equipment across the 
Capitol Campus that need to be maintained just like your car 
needs to be maintained. If you don't put oil in the engine of 
your car, ultimately it's going to seize up and that's going to 
cost you $4,000 or $5,000 for a new engine.
    All of our equipment, whether it's elevators or escalators 
or HVAC pieces of equipment or pumps, throughout the Capitol 
Campus are just like your automobile that requires ongoing 
investment on a continual basis to keep running at optimal 
performance.
    I can also reflect that over the last several years of 
relatively flat budgets, we have had to reduce many of our 
maintenance activities so that we could continue to pay our 
people and pay for mandatory pay increases, make sure they're 
trained and able to do their function. That has increased our 
number of work orders that aren't closed on time, which means 
the preventive maintenance activities or the oil change in your 
car may be required every 3,000 miles. Well, we're not doing it 
on our equipment for every 6,000 miles. That's sort of an 
analogy that I think we can all appreciate.
    Senator Daines. Yes. Well, I spent 13 years before I got in 
cloud-computing in manufacturing and that move to preventive 
maintenance, it's pay me now or pay me later and usually if you 
pay it now, it's on your schedule versus paying later on a 
reactive schedule. So I applaud the more proactive preventive 
maintenance philosophy you're bringing to the job each day.
    Mr. Ayers. Thank you.

    Senator Daines. Senator Murphy.
    Senator Murphy. Thank you again, Mr. Chairman.

                               CHILDCARE

    Mr. Ayers, I want to talk to you for just a little bit 
about childcare. The House over the past two fiscal years has 
taken over the O'Neill Building and they funded $30 million in 
renovations that tripled the capacity of the childcare centers 
there.
    That has been, you know, an issue that we've been talking 
around in the Senate, especially of late, about the fact that 
the Senate is pretty wildly less family-friendly than the House 
is, largely because of our rules, but also because we have 68 
slots for childcare in the Senate. We have nine infant slots 
for the entirety of the Senate and their staff, and as we want 
to become a more attractive work place for very busy parents, 
we've got to keep up with the increasing demand for childcare.
    So I know you did a study, your AOC did a study in 2018 
about facility options. Can you just talk to us a little bit 
about, to the extent you know them, what the options were that 
you identified and any update on options that might be 
available to us, should we want to make that same kind of 
funding commitment that the House did?
    Mr. Ayers. Thank you, Senator Murphy. We did do a study in 
2010. I've read the report and I think there were probably 15 
or 20 alternatives that were evaluated that were within a 15-
or-20-minute walking distance to the Dirksen Building.
    There were a number of alternatives. They all had their 
pros and cons. I think the net result of that survey was we are 
better off building a new building here on the Capitol Campus 
than trying to purchase another building and renovating one of 
those old properties that are around the Capitol Campus.
    Senator Murphy. Do you remember if----
    Mr. Ayers. It's probably time to engage in another study 
since that--it's really a real estate agent kind of study. It's 
probably seven or 8 years old and time that we do that again, 
if the Congress is interested in that.
    Senator Murphy. Do you know if the empty floors at the 
Library's Little Scholars facility on East Capitol was part of 
that study or whether that's still available today? That would 
seem like a pretty easy and accessible option.
    Mr. Ayers. I don't recall, Senator, whether that was part 
of the study, but I do know that the upper floors of that 
building are currently vacant. I think one of the limiting 
factors in the childcare center business is infants need to be 
on the first floor. They can't be on any upper floors, and so 
usually a multiple-story building doesn't work out well for 
childcare centers.
    Senator Murphy. Well, I look forward to following up on 
this with you. I think whether we need a full study done or 
not, it's probably time for us to catch up to where the House 
is on this question.

                           ENERGY EFFICIENCY

    My only other question for you, Mr. Ayers, was on the 
question of energy efficiency, which is something I know you've 
put a lot of thought and work in on. I'm pretty impressed that 
the AOC has reduced energy consumption on campus by 32 percent 
over 10 years. That's no joke and a credit to both you and to 
the people who use the building.
    Can you just give a little update on what may come next 
with respect to energy efficiency? What are the investments 
that we should be looking at as a committee if we wanted to, 
you know, make another down payment?
    I know once you get your first 30 percent, it gets a little 
bit harder after that, but what are the things that we should 
be looking at as investments, things that might be further down 
on your list for those of us that might want to invest earlier 
we could look at moving up?
    Mr. Ayers. Senator Murphy, that first 30 percent really 
stemmed from the Energy Independence and Security Act that the 
Congress was the lead on that and we were able to achieve the 
30 percent mandated by 2015.
    We're so confident that there's still energy to be saved in 
our buildings that we set another goal for ourselves of 20 more 
percent energy use intensity in our buildings over the next 10 
years. That's going to total 50 percent, and something that the 
Congress can be very, very proud of, in 2025.
    Mr. Ayers. Is that 20 percent off of the pre-30 percent 
baseline or is that a new 20 percent off of existing baseline
    Mr. Ayers. That's 20 percent off the original baseline.
    Senator Murphy. Additional 20 percent. Okay.
    Mr. Ayers. That's pretty aggressive. There are two big 
moves that we are making that will get us there and that the 
Congress has already made investments in.
    One is the cogeneration system at the Capitol Power Plant. 
When that is online, it will begin to pay back in energy 
savings, in perpetuity quite frankly, and so we're going to see 
very significant savings from that.
    Secondly, the way we were able to achieve the first 30 
percent, the big moves were three energy savings performance 
contracts, public-private partnerships, one in the Senate, one 
in the House, and one in the Capitol. They've been so 
successful for us, we determined that we're going to do a 
fourth one at the Library of Congress Buildings and we are in 
the engineering phase of that now. That's going to save us 
considerable energy.
    Those two big moves, along with some behavioral changes 
throughout the Congress, we think, are going to enable us to 
achieve 50 percent by 2025.
    Senator Murphy. Do you know--sorry to put you on the spot, 
but do you know offhand what were the major contributors that 
your private contractors achieved to get that reduction?
    Mr. Ayers. Well, the Number 1 thing is steam efficiency and 
doing everything we can to make sure our steam operations are 
as efficient, in generating, distributing and conserving it in 
our buildings is the most important thing we can do.
    Next in line is electrical savings, whether it's turning 
HVAC equipment off at night, setbacks on evenings and weekends 
and things like that. So steam first, electricity second.
    Senator Murphy. Okay. All right. Great. Well, listen, look 
forward to working with you on the next 20 percent. Thank you.
    Senator Daines. I'm going to support the Ranking Member's 
thinking around maybe revisiting the site and looking for 
creative ways we can provide a childcare facility. I think 
that's something that we need to look at with our workforce 
shortages, looking at the future, and becoming more family-
friendly here on the Hill.
    The private sector does that. Oftentimes they're 
integrating daycare right where moms and dads go to work every 
day. So look forward to working on that, Senator Murphy, and 
maybe we can revitalize that and take a fresh look.

              LIBRARY OF CONGRESS NORTH EXIT STAIR PROJECT

    Mr. Ayers, included in your request is $18.1 million for 
the North Exit Stair Project in the Thomas Jefferson Building 
to address the Office of Compliance citation regarding egress 
issues. We talked about that a bit yesterday.
    This is the first of many phases to remediate the citation 
with a total project cost anticipated to be $62 million.
    Have you consulted with the Librarian and, if not, I could 
point you to her, on how this project may impact plans for the 
Visitors Experience Project also in the Thomas Jefferson 
Building?
    Mr. Ayers. Well, those are three important projects. There 
are four stairwells that we believe are necessary in the Thomas 
Jefferson Building. Of course, we have an open citation from 
the Office of Compliance for those stairwells.
    There's no doubt a building from 1897 is egress-deficient, 
doesn't meet today's current building codes. The Congress has 
already invested in the first stairwell and the first phase of 
all four of these stairwells is to relocate the books that are 
in the area where the stairwells are going to go. So we've 
worked closely with the Library on that first phase.
    We've identified the location. The books have been moved 
out and relocated to another area by the Library of Congress, 
and we're ready to start construction.
    While Dr. Hayden and I haven't specifically talked about 
whether there's any interference between those staircases and 
the new Visitors Experience, I'm confident to say I don't 
believe that there is. I know where the stairs are and I know 
the big moves that Dr. Hayden is contemplating for the new 
Visitors Experience and I don't think there'll be any overlap 
or any interference with one another.
    Dr. Hayden. I agree.
    Senator Daines. Here's your chance, Dr. Hayden, right here.
    Dr. Hayden. Well, we have talked generally about the 
possible impact of more visitors coming because they want to 
see the treasures. I was listening with interest about the 
being more family friendly, having a youth center, and having 
more people having access from zero to 12 coming into the 
Library.
    So we're very aware that if we build it, they will come 
with these wonderful new exhibits, and it's basically an 
exhibit-driven visitor experience and the architectural aspects 
of the building parts will be with the AOC, and there should be 
little impact from what we understand already on the structure.
    Senator Daines. A follow-up question. What's the 
anticipated timeframe, back to Mr. Ayers, for completion of the 
phase of the project given funding is provided in fiscal year 
2019?
    Mr. Ayers. Of the exit stairs, Senator?
    Senator Daines. Correct.
    Mr. Ayers. That's probably an 18-month to 24-month 
construction period.
    Senator Daines. Okay.
    Mr. Ayers. Pretty significant job in the middle of an 
occupied building, of course.
    Senator Daines. Right. And a $62 million price tag, so 
that's significant.

                       SENATE UNDERGROUND GARAGE

    My last question for Mr. Ayers is regarding the Senate 
Underground Garage. It's a very visible project. We just funded 
the final phase of the project in the fiscal year 2018 Omnibus.
    Could you provide an overview of the work that we have 
already done on the project and what this final phase will 
accomplish?
    Mr. Ayers. This project is broken down into a number of 
phases and funded according to those phases, but the Senate 
Underground Garage dates back to--well, it was last renovated 
in the 1950s. I think it was first built in the 1930s, 
renovated in the 1950s.
    It holds about 190 cars and the first move is to move all 
of those cars out to several alternative parking locations, 
including a surface lot that we have created where the Taft 
Memorial is. Then we need to essentially uncover that entire 
garage, the roof, many of the walls, and excavate it, 
rewaterproof it, put it all back together, and then go back 
inside and restore the walls and fire protection systems, the 
ventilating system, electrical services in the garage.
    Senator Daines. What's the anticipated end date if the 
project remains on schedule?
    Mr. Ayers. I think the end date is November of 2020.
    Senator Daines. Okay. Thank you.
    Senator Murphy.
    Senator Murphy. I'm good.
    Senator Daines. Okay. Well, this concludes the Legislative 
Branch Appropriations Subcommittee hearing regarding fiscal 
year 2019 funding for the Library of Congress and the Architect 
of the Capitol.
    Thank you, Dr. Hayden, thank you, Mr. Ayers, for your 
testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for 7 days, allowing 
Members to submit statements and/or questions for the record, 
which should be sent to the subcommittee by close of business 
on Tuesday, May 15th, 2018.
    [The following questions were not asked at the hearing, but 
were submitted to the agencies for response subsequent to the 
hearing:]
              Questions Submitted to Hon. Carla D. Hayden
            Questions Submitted by Senator Cindy Hyde-Smith
                         educational materials
    Question. Dr. Hayden, many of my constituents live in rural areas 
and a majority of Mississippi students attend school districts that are 
considered rural by the Department of Education. In many of our towns, 
the public library is a center point for the community, where 
constituents have access to the Internet, books and other educational 
materials. Would you share with the Committee how the Library of 
Congress is utilizing its resources to assist rural libraries and 
schools?
    Answer. The Library of Congress is utilizing its resources to 
assist rural libraries and schools in a number of ways. For starters, 
our Teaching with Primary Sources (TPS) program awards grants to a 
diverse array of educational organizations all over the country that 
deliver primary source-based professional development opportunities for 
teachers and librarians, and design curriculum and apps/online 
interactives for students that also use primary sources from the 
Library's collections. In recent years, the Library has granted funds 
to numerous organizations that have focused their efforts specifically 
on rural communities. Three in particular include: Mississippi State 
University (MSU); The McComb, Mississippi, School District; and Mars 
Hill University (North Carolina).
    The TPS program also supports teachers nationwide through the 
Library's online portal for educators, the Teachers Page (www.loc.gov/
teachers), which provides easy access to classroom-appropriate Library 
of Congress primary sources, classroom materials, and online 
professional development. The Teachers Page Search by Standards tool 
allows educators anywhere in the United States to find resources that 
meet their State requirements.
    Meanwhile, the Library is leveraging the power of social media to 
reach teachers and librarians wherever they are, using the ``Teaching 
with the Library of Congress'' blog and Twitter account to highlight 
materials, strategies, and opportunities that are available from the 
library to assist schools and libraries.
    The Library is also actively livestreaming, recording, and posting 
on-site programs--including author programs, concerts, and monthly 
story times--making them available online via the Library's You Tube 
channel and Facebook page . We are promoting the programs and extending 
their reach via Twitter (https://
twitter.com/librarycongress; and https://twitter.com/TeachingLC).
    Both the current Poet Laureate, Tracy K. Smith, and the current 
National Ambassador for Young People's Literature, Jacqueline Woodson, 
are reaching out to rural libraries and schools.
                          surplus book program
    Question. Dr. Hayden, the Library of Congress Surplus Book Program 
benefits numerous schools in Mississippi. I know there are many 
organizations who are thankful for the books and other educational 
materials made available to them. What is the Library of Congress doing 
to ensure schools and other public entities are aware of this valuable 
service offered by the Library? Does the Library intend to increase 
outreach and services for this program?
    Answer. The Library reaches out to schools and other public 
entities about the surplus book program directly through its website, 
through trusted partners, and most critically through congressional 
offices. In order to communicate directly with interested organizations 
the Library maintains a website on the program (https://www.loc.gov/
acq/surplus.html), including eligibility requirements and instructions 
on application through or separately from a congressional office. 
Information on the program is also available linked from the ALA 
website (http://libguides.ala.org/book-donations/seeking-books), a 
trusted resource for public libraries, school libraries, and other 
educational institutions. However, the Library's most important 
outreach efforts for the surplus book program are through congressional 
offices, to help them spread awareness of the program among their 
constituents. These efforts, primarily through the Library's 
Congressional Relations Office, are multi-faceted, including: Every new 
Congress scheduling appointments with new Member offices to discuss 
Library services for them, their staff and constituents, including the 
Surplus Books Program; Following a natural disaster, sending a notice 
into the States/districts affected providing information about the 
program and how it can be used in their State/district (Library staff 
also liaise with FEMA on an ongoing basis to ensure awareness of 
emergency needs and support for recovery efforts); Maintaining a 
congressional-only facing website which includes a description of the 
program (http://www.loc.gov/lcnet/constituent/); and advertising the 
program through the Committee on House Administration's weekly 
newsletter, as well as at district director meetings held at the 
Library of Congress.
    As technological opportunities allow, the Library continues to 
explore ways to automate the program or provide offsite access to it. 
However, as it currently structured and funded, the program is not well 
poised for further expansion due to: the limited number of materials 
(only those books not selected or retained by the Library), especially 
in areas of particular interest to many school libraries (such as 
children books or Spanish language books); the limited number of 
Library staff currently available to stamp and box the selected 
materials; the need for shipping costs to be covered either by the 
recipient organization or through Congressional Franked mail (there are 
no Library funds designated for this postage); and the need for 
congressional or recipient organization staff to select the materials 
on-site at the Library.

                          SUBCOMMITTEE RECESS

    Senator Daines. The next hearing of the subcommittee will 
be held on Tuesday, May 15, at 2:30 p.m., in Dirksen 138, and 
we will hear testimony from the Capitol Police and the Senate 
Sergeant at Arms regarding their fiscal year 2019 budget 
request.
    Until then, the subcommittee stands adjourned.
    [Whereupon, at 3:45 p.m., Tuesday, May 8, the subcommittee 
was recessed, to reconvene subject to the call of the Chair.]
</pre></body></html>
